UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




     Internal Controls in the Office of
     Equal Employment Opportunity


                Report No. OIG-AMR-67-12-01




                                              January 9, 2012
                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY ............................................................................ 1

BACKGROUND.......................................................................................... 2

OBJECTIVE, SCOPE, AND METHODOLOGY............................................... 2

FINDINGS................................................................................................. 4

ANALYSIS ................................................................................................ 4

INTERNAL CONTROLS.............................................................................. 4

  Recommendation.......................................................................................... 5

PROCESSING TIME PERIODS ................................................................... 6

  Recommendation.......................................................................................... 8

CASE FILES ............................................................................................. 9

  Management Comments ............................................................................... 9
  OIG Response............................................................................................. 10
  Recommendation........................................................................................ 10

DATA ACCURACY AND RELIABILITY ...................................................... 10

  Recommendation........................................................................................ 14

FORMAL COMPLAINT PROCESS ............................................................. 14

  Recommendations ...................................................................................... 17

APPENDIX

        Memorandum from the Acting Director, Office of Equal Employment
        Opportunity, Response to Inspector General’s Audit Report, dated
        January 3, 2012
National Labor Relations Board
Office of Inspector General

EXECUTIVE SUMMARY

We conducted this audit to determine whether controls in the National Labor
Relations Board’s Office of Equal Employment Opportunity are designed and
implemented in a manner that ensures that its mission is accomplished. The
scope of our review was the 41 cases pending in the National Labor Relations
Board’s equal employment opportunity process during Fiscal Year 2010.

We found that the Office of Equal Employment Opportunity does not have
sufficient internal controls. The Office of Equal Employment Opportunity does
not have documented procedures related to the accuracy or quality of its
investigative work or for the reports that are issued to the Equal Employment
Opportunity Commission. Our review also found that the Office of Equal
Employment Opportunity is not meeting the regulatory time limits associated
with the processing and investigation of complaints. After comparing the case
files to the case processing database, we concluded that the data is not reliable
and that there are not sufficient control procedures in place to assure database
accuracy/completeness given the errors and missing cases identified. We also
found errors in the reports issued to the Equal Employment Opportunity
Commission. We made several recommendations to improve the internal
control environment.

During the course of the audit, complaints regarding quality of the
investigations were provided to us by management officials and issues of
restraints on the investigative process were brought to our attention by Office
of Equal Employment Opportunity personnel. Based on our review of the
investigative procedures, interviews with Agency personnel, and comments of
the Equal Employment Opportunity Commission’s Office of Federal Operations,
we are recommending that the Office of Equal Employment Opportunity
develop new investigative procedures that provide for the “prompt, fair and
impartial processing” of complaints in accordance with the Equal Employment
Opportunity Commission’s regulations and policies.

The Acting Director, Office of Equal Employment Opportunity, provided
comments to the draft report stating general agreement with the findings and
recommendations -- with the exception of those related to the maintenance of
the complaint files. The Acting Director also stated that the Office of Equal
Employment Opportunity is committed to its statutory mission to effectuate
equal employment opportunity principles at the National Labor Relations
Board. The comments are provided as an appendix to the report.
BACKGROUND

             Each Federal agency is required to appoint a Director of
             Equal Employment Opportunity, who shall be under the
             immediate supervision of the agency head. The Equal
             Employment Opportunity Director is responsible for the
             implementation of a continuing affirmative employment
             program to promote equal employment opportunity and to
             identify and eliminate discriminatory practices and policies
             that are based upon race, color, religion, sex (including
             pregnancy), national origin, age (40 or older), disability or
             genetic information.

             At the National Labor Relations Board (NLRB or Agency), the
             Equal Employment Opportunity Director is the Director of
             the Office of Equal Employment Opportunity (OEEO). The
             OEEO has several responsibilities that include complaint
             processing and Alternative Dispute Resolution; affirmative
             employment and minority recruitment; diversity awareness
             and harassment/respect in the workforce training; and
             technical assistance. This report focuses only on the
             complaint processing.

             Employees and applicants initiate the complaint process by
             first contacting a counselor. This phase of the equal
             employment opportunity process is the “informal stage.” If
             the matter cannot be resolved in the informal stage, the
             employee or applicant can elect to file a formal complaint.

             In Fiscal Year (FY) 2010, there were 41 cases pending in the
             NLRB’s equal employment opportunity process. Of those
             cases, 18 did not proceed beyond the informal stage, 21
             involved a formal complaint either during or after FY 2010,
             and 2 were informal cases that were processed by the OEEO
             through the counseling stage for another agency.


OBJECTIVE, SCOPE, AND METHODOLOGY

             The objective of this audit was to determine whether controls
             in the OEEO over the informal counseling and investigation
             of allegations of discrimination are designed and
             implemented in a manner that ensures that the office's
             mission is accomplished. Our scope was the 41 cases




                                2
pending in the NLRB’s equal employment opportunity
process during FY 2010.

We reviewed Title 29 CFR Part 1614 and the U.S. Equal
Employment Opportunity Commission Management
Directive 110, Federal Sector Complaint Processing Manual
(EEO MD-110).

We interviewed OEEO staff about the office’s policies and
procedures and the OEEO’s case processing database known
as EEONet that is used to prepare reports and track cases.
Based on the information that was provided to us, we
identified and tested key controls. We also determined if the
OEEO processed the cases in accordance with regulatory
time frames.

We obtained data from EEONet and hard copy reports
prepared by EEO counselors to determine the universe of
complaint cases that were pending during FY 2010. The
universe of cases consisted of 41 total cases, which included
18 informal counseling and 21 formal complaint cases at the
NLRB and 2 informal counseling cases that were processed
by the OEEO through the counseling stage for another
agency. For those cases, we reviewed the reports submitted
to OEEO by the counselors, the case files for any formal
complaints, and any other documentation maintained by
OEEO that was related to a particular case. We then
compared the information that we obtained from those
sources to the data in EEONet to determine if the data was
reliable.

We also tested the accuracy of the FY 2010 Complaint
Processing Program 462 Report that OEEO submitted to the
Equal Employment Opportunity Commission’s Office of
Federal Operations.

The comments on the draft report submitted by the Acting
Director, Office of Equal Employment Opportunity, stated
that the audit report does not critique the quality of their
investigations. We interpret that statement to address the
quality or reliability of the information reported through the
Office of Equal Employment Opportunity’s investigative
process. We note that such a critique was not within the
scope of this audit, and the Office of Inspector General
expresses no opinion on the quality or the reliability of the



                    3
             information contained in the Office of Equal Employment
             Opportunity’s investigative reports.

             We conducted this performance audit in accordance with
             generally accepted government auditing standards during
             the period March 2011 through November 2011. Those
             standards require that we plan and perform the audit to
             obtain sufficient, appropriate evidence to provide a
             reasonable basis for our findings and conclusions based on
             our audit objectives. We believe that the evidence obtained
             provides a reasonable basis for our findings and conclusions
             based on our audit objectives.


FINDINGS

             We found that the NLRB’s OEEO does not have sufficient
             internal controls to prevent or detect errors in the processing
             of complaints, the reporting of its complaint processing
             statistics, or in its database of investigative cases. We also
             found that the current OEEO investigative practices should
             be reviewed to ensure the “prompt, fair and impartial
             processing” of complaints in accordance with the Equal
             Employment Opportunity Commission’s regulations and
             policies.


ANALYSIS

INTERNAL CONTROLS

             The U.S. Government Accountability Office’s (GAO)
             Standards for Internal Control in the Federal Government
             states that internal control activities help ensure that
             management's directives are carried out. Control activities
             are the policies, procedures, techniques, and mechanisms
             that enforce management’s directives. They include a wide
             range of diverse activities such as approvals, authorizations,
             verifications, performance reviews, and the creation and
             maintenance of related records which provide evidence of
             execution of these activities. The standards also note that
             internal control is not one event, but a series of actions and
             activities that occur throughout an entity’s operations and
             on an ongoing basis.




                                4
             Control Procedures and Reviews

             The U.S. GAO’s Standards for Internal Control in the Federal
             Government states that internal control and all transactions
             and other significant events need to be clearly documented,
             and the documentation should be readily available for
             examination in management directives, administrative
             policies, or operating manuals.

             In response to our request for documentation of policy and
             procedures, OEEO staff provided to us a desk manual, a
             handbook for counselors, and an investigator training
             manual that was issued by the Equal Employment
             Opportunity Commission. The OEEO staff stated that the
             desk manual was in the process of being updated. Our
             review of these items found that they did not sufficiently
             identify or document internal control procedures related to
             the accuracy or quality of the investigative work or the
             reports that were issued by the OEEO to the Equal
             Employment Opportunity Commission.

             OEEO staff also described procedures that were not
             memorialized in a policy document. Those procedures
             included supervisory review of investigative evidence and
             reports. When we tested the implementation of that control,
             we found the OEEO staff did not record or maintain
             documentation of supervisory reviews. We also found that
             OEEO had not developed checklists or documented the
             criteria that a supervisor should utilize to conduct a review
             of an investigative file or Equal Employment Opportunity
             Commission report. OEEO staff also stated they use an
             acceptability checklist once the complaint and counselor’s
             report are received. For six cases (28.6 percent), we found
             that the acceptability checklist was missing from the case
             files.

Recommendation

             We recommend that the OEEO Director:

             1. Develop and document internal control procedures and
                processes to ensure supervisory review of OEEO
                investigations and that the Equal Employment
                Opportunity Commission’s regulatory requirements are
                met.



                                5
PROCESSING TIME PERIODS

             Initiating Contact with EEO Counselor

             The regulations state that an employee or applicant must
             initiate contact with a counselor within 45 days of the date of
             the matter alleged to be discriminatory. Under certain
             circumstances, the time limit can be extended.

             To determine whether the time limit for initiating contact
             with the counselor was met, we reviewed the informal
             counseling source documents and formal case files
             maintained by OEEO; EEONet; and the counselors’ annual
             reports. For the 21 cases that resulted in formal complaints,
             there was adequate documentation of the date of the
             incident and initial contact with the counselor. We found
             that for those 21 cases, contact was made with the counselor
             within the 45-day regulatory period or an appropriately
             extended period of time. For the 18 cases that did not result
             in a formal complaint, we were unable to find a record of
             whether individuals contacted the counselor within 45 days
             of the incident date. For this testing, we did not include the
             two informal counseling cases that were processed for the
             other agency.

             Informal Counseling Time Limits

             The Equal Employment Opportunity Commission’s
             regulations require that counselors conduct the final
             interview with an employee or applicant within 30 days of
             the date of the initial request for counseling. The regulations
             also state that prior to the end of the 30-day period, an
             employee or applicant may agree in writing to postpone the
             final interview and extend the counseling period for an
             additional period of not more than 60 days. The following
             chart details the timeliness of the informal counseling
             process:

                                                       Cases       Percent
              Exceeded 30-day Limit                            5     12.2%
              (No extension)
              Exceeded 90-day Limit                         11       26.8%
              (30 days plus a 60-day extension)
              No Records                                     4        9.8%
              Met Regulatory Limit                          21       51.2%


                                6
For informal counseling cases that exceeded the regulatory
time limit, we determined that the average number of days in
excess of the limit was 15 days and the range of days was
from 1 to 76 days.

We also found that OEEO did not actively monitor the
informal counseling process. OEEO staff stated that they
became aware of an informal counseling case if the
counselor or aggrieved individual brings the case to their
attention, or if a formal complaint is filed. If a matter
involving informal counseling is not brought to the attention
of OEEO, the staff relies upon the counselors’ annual
reports.

Accept/Dismiss Decisions

The Equal Employment Opportunity Commission’s
regulations require that the entire complaint be dismissed if
the complaint is not filed within 15 days from the receipt of
the notice from the counselor of the right to file a complaint.

We identified two cases in which a formal complaint was filed
after the 15-day limit expired. In one case, OEEO dismissed
the complaint. In the other case, OEEO issued a Report of
Investigation after processing the complaint for 500 days;
thereafter, the Agency settled the case. Based on our review
of that case file, we determined that an incorrect date was
used when OEEO performed the acceptability review of the
complaint. We observed that the case file did not contain
any evidence that a waiver of the time limit was requested,
that a waiver was considered or granted, and we could find
no documentation of a factual basis for estoppel or an
equitable tolling of the time limit. We were also unable to
find documentation that the error was discovered by the
OEEO staff prior to the audit.

Investigations

The regulations require that an agency complete its
investigation within one of two time periods. For cases
involving an allegation that is only within the jurisdiction of
the Equal Employment Opportunity Commission, the time
limit for the investigation is 180 days after the date of filing
of a complaint. If a complaint is amended, an agency is
required to complete the investigation within the earlier of



                    7
             180 days after the last amendment or 360 days after the
             filing of the original complaint. If an allegation is also
             appealable to the Merit Systems Protection Board, it is
             considered a “mixed” case and the time limit to complete the
             investigation is 120 days. The regulations also allow for an
             extension of time under certain circumstances. If an
             investigation is not completed within the time limits, the
             employee or applicant may request a hearing before the
             Equal Employment Opportunity Commission or, for a mixed
             case, make an appeal to the Merit Systems Protection Board
             or file a civil action.

             We tested the timeliness of the 13 completed investigations.
             We found six investigations were completed within the
             regulatory time limits, one investigation was completed
             within the extended time limits, and six investigations
             exceeded the time limits. For the six investigations that
             exceeded the time limits:

                    Two of the cases exceeded the 180-day limit;
                    Two cases exceeded the time limit for amended
                     complaints; and
                    Two mixed cases exceeded the 120-day limit.

             When we reviewed the six case files, we found that there was
             no documentation that an extension had been approved or
             agreed to by the parties. We also interviewed OEEO staff
             about the causes for not meeting the regulatory time limits.
             The staff explained that causes of late investigations
             included uncooperative complainants that did not submit
             evidence or continuously canceled appointments with the
             investigator; coordination of schedules between the
             investigator, complainant, and the complainant’s
             representative; and the Agency requiring OEEO to reassign
             an investigation from one OEEO attorney to another. These
             reasons do not meet the regulatory requirements for an
             extension of time.

Recommendation

             Recommendation 1 addresses the finding related to
             timeliness noted above.




                                 8
CASE FILES

             EEO MD-110 requires that OEEO assemble a complaint file
             that includes a title page and contains all of the documents
             pertinent to the complaint. EEO MD-110 is very specific
             with regard to the features of the complaint file and requires
             the files to have a case index; tabbed sections for documents,
             exhibits, and explanatory material; and a typed summary of
             the investigation that is signed and dated by the investigator.
             EEO MD-110 also suggests a format for the complaint file.

             OEEO does not maintain complaint files as directed or
             suggested by EEO MD-110. OEEO policy is to maintain two
             files for each of the formal complaints. One file is referred to
             as a “Report of Investigation” and the other file is referred to
             as an “administrative file.” When we reviewed these files, we
             found that together they did not meet the requirements set
             out in EEO MD-110 as a complaint file. Specifically, the files
             lack a complete index; the administrative files were not
             consistently tabbed; and a title page had been modified and
             does not include the same information as the model title
             page.

             We also reviewed the case files to determine if the contents
             included the various documents that are produced during
             the investigation of a complaint. As a result of our review,
             we identified four documents missing from one or more case
             files. The chart below details our findings:

                                                             Cases Where
                                             Applicable       Files Were
             Document not Found                Cases         Incomplete
             Notice of Rights and                     21                 10
             Responsibilities
             Extension of Informal                      14                 8
             Counseling
             Notice of Election Rights                  13                 1
             Resolution/Settlement                       7                 1

Management Comments

             The Acting Director, Office of Equal Employment
             Opportunity, commented that they disagree that the
             complaint files do not meet the requirements of EEO MD-



                                 9
               110. The Acting Director also commented that all pertinent
               documents are included in the Report of Investigation.

OIG Response

               As stated in the chart above, we found that case files did not
               in fact contain all pertinent documents. Because almost half
               of the case files were missing at least one document, it
               cannot be said the Office of Equal Employment Opportunity
               is maintaining the case files in accordance with EEO MD-
               110.

Recommendation

               We recommend that the OEEO Director:

               2. Develop a case filing system that adheres to the
                  requirements and follows the guidance of EEO MD-110.


DATA ACCURACY AND RELIABILITY

               The U.S. GAO’s Standards for Internal Control in the Federal
               Government states that information should be recorded and
               communicated to management and others within the entity
               who need it and in a form and within a time frame that
               enables them to carry out their internal control and other
               responsibilities. The standards also note that for an entity to
               run and control its operations, the data must be relevant,
               reliable, and timely.

               Case Processing Database

               We found that all 21 formal complaint cases were entered
               into EEONet. We then tested 41 data elements from EEONet
               against the information in those case files. The data
               elements were selected based on their relevance to Federal
               sector processing requirements and key processing events in
               a case. As indicated in the chart below, we identified errors
               in 33 data elements:




                                  10
                                                 Cases
                                    Applicable    with
Data Element                          Cases      Errors
Docket Number                              21          4
Basis/Issues                               21          1
Incident Date                              21         20
Initial Contact [Date Field]               21          2
Counselor Assigned                         21          1
Initial Interview [Date Field]             21         13
ADR Offer Status                           21          2
ADR Date                                     3         1
Amendment Date(s)                            8         7
Extension Granted                          14          4
Days Granted                               14          4
Final Interview Letter
Mailed/Delivered [Date Field]              21             1
Final Interview Letter Received
[Date Field]                               21             7
Pre-Complaint Closure Date                 21             9
Filed Formal Complaint [Date
Field]                                     21             2
Counselor Report Received [Date
Field]                                     21             3
Investigator Assigned [Date
Field]                                     19          1
Investigation Cost                         13         11
Investigation Completed [Date
Field]                                     13             3
Final Agency Decision without
an Administrative Judge (AJ)
Decision                                    2             1
Hearing Requested [Date Field]             10             5
Hearing Files Mailed [Date Field]           9             6
EEOC Hearing Number                         6             2
Disposition by AJ                           5             2
AJ Remand Received [Date
Field]                                      5             2
Final Agency Action with an
Administrative Judge (AJ)
Decision: AJ Decision Not Fully
Implemented                                 1             1
Dismissed/Closed [Date Field]              12             6



                 11
                                                    Cases
                                    Applicable       with
Data Element                          Cases         Errors
Closure Method                             12                3
Notes                                        8               1
Appeal Number                                3               2
Agency Initiated Appeal                      3               2
Appeal Type                                  3               2
Appeal Filed [Date Field]                    3               2

Based on our interviews with OEEO staff, we found that
OEEO is not performing data integrity or quality reviews of
the EEONet data. As a result of our testing and statements
by the OEEO staff, we conclude that the EEONet data is not
reliable and that there are not sufficient control procedures
in place to assure database accuracy/completeness.

Informal Counseling Controls

OEEO does not maintain a complete filing system for
informal counseling cases that do not result in the filing of a
formal complaint. OEEO also does not seek or require
counselors to submit informal counseling documentation
unless a formal complaint is filed. Although OEEO staff
stated that informal counseling cases are entered into
EEONet as a precursor for the formal complaint, we found
that 13 (72 percent) informal counseling cases at the NLRB
were not entered into EEONet. Neither of the two non-NLRB
informal counseling cases were entered into EEONet.

OEEO, however, does require all EEO counselors to submit
annual reports at the end of the year listing their informal
counseling cases along with key processing events. OEEO
stated that they use the counselors’ annual reports to verify
that the Pre-Complaint Activities section of the complaint
processing report submitted to the Equal Employment
Opportunity Commission is complete. We reviewed the
format of the counselors’ annual reports and determined
that it does not capture the incident date or extensions to
the counseling period. That information is required to
complete the OEEO annual report to the Equal Employment
Opportunity Commission and to allow for sufficient
monitoring of the timeliness of case processing.




                   12
We identified 17 cases from the counselors’ 2010 annual
reports that resulted in the filing of a formal complaint.
Federal regulations require the counselors to submit written
reports 15 days after a formal complaint; the report is then
maintained in the complaint case file. We tested the
counselors’ annual reports against their written reports in
OEEO’s case files for the 17 cases. We identified five cases
(29 percent) in which the counselors inconsistently recorded
key processing data on the annual reports and written
reports for formal complaints.

Annual Report to EEOC

The Equal Employment Opportunity Commission’s Office of
Federal Operations produces an annual report on the
Federal workforce that includes, among other data,
information on equal employment opportunity complaints.
This data is collected from each agency in the Annual
Federal Equal Employment Opportunity Statistical Report of
Discrimination Complaints (EEOC Form 462).

 To test the accuracy of the OEEO’s FY 2010 EEOC Form
462, we interviewed OEEO staff and reviewed the
documentation that was provided by the staff to support the
report. Because we were unable to reconcile the supporting
documentation to the EEOC Form 462, we then recalculated
the data using the counselor reports, EEONet, and case
files. Based on our recalculation, we determined that the
OEEO’s FY 2010 EEOC Form 462 was inaccurate.

We then compared our recalculation to the documentation
that was provided to us by the OEEO staff. After doing so,
we made reasonable assumptions as to the cause of the
errors. The results of our recalculation and assumptions are
stated below.

Pre-Complaint Activities Section

We found that the number of initiated informal counseling
cases and the number of completed informal counseling
cases were both overstated by four. Based on our review of
the counselors’ reports and the information provided by
OEEO staff, we found some evidence indicating that two
cases were counted twice and one of the two non-NLRB
cases was included in the number of cases reported, but



                  13
             given the state of the supporting documentation we could
             not determine the exact cause of the error. This error also
             appears to have caused additional errors in the numbers of
             cases reported for the counseling time periods. We also
             determined that four cases that did not have a closing date
             recorded in documentation or data maintained by OEEO
             were included in the report based upon information
             informally provided to OEEO by the counselors. In the
             section that reports the outcome of the counseling (Part D),
             we determined that OEEO reported incorrect data in two
             categories. We observed that an informal settlement that
             was counted in the report was not reduced to writing as
             required by the Equal Employment Opportunity
             Commission’s procedures.

             Formal Complaint Activities Section

             We found that OEEO reported two investigations as being
             completed when in fact they completed three. We also
             determined that the status of two cases was misstated. One
             case was reported as pending a hearing when it had in fact
             been settled, and the final action on a mixed case was
             misstated. OEEO also recorded the incorrect number of
             days for four cases as a result of errors in its electronic case
             management system. Also, because one case was not
             included in the number of completed investigations, it was

             not counted in the OEEO’s estimate of Agency personnel
             investigation costs.

Recommendation

             We recommend that the OEEO Director:

             3. Develop and implement processes and procedures to
                ensure that the OEEO case processing data is reliable
                and that reports to the Equal Employment Opportunity
                Commission are accurate.


FORMAL COMPLAINT PROCESS

             During the course of the audit, complaints regarding the
             quality of the OEEO investigations were provided to us by
             management officials, and issues of restraints on the



                                14
investigative process were brought to our attention by OEEO
personnel.

In May 2002 the Board and General Counsel issued a
memorandum detailing the OEEO’s investigative process.
The memorandum appears to be the result of about 4 years
of consideration of the OEEO’s investigative process at the
NLRB. During that time, there was considerable debate
regarding the OEEO investigative techniques and its release
of information to management during an investigation. In
December 2004, the procedures were implemented with
slight modifications.

The following is a synopsis of the investigative requirements
outlined in the memorandum:

      OEEO must provide formal complaints and
       complainant’s affidavits to the Special Counsel;

      Special Counsel should represent the Agency and its
       managers at all stages of the complaint process, and
       fully participate in the investigation, mediation, and
       settlement process;

      Except in unusual circumstances, written
       interrogatories and management-prepared affidavits
       are the preferred method of obtaining information from
       management witness;

      Unusual circumstances are described as situations
       when the witness refuses to cooperate, is
       incapacitated, or is otherwise unable to provide the
       information through the use of interrogatories or an
       affidavit and requires the assistance of the
       investigator;

      Face-to-face and telephone interviews should not be
       recorded or transcribed by court stenographer, tape
       recorder, video camera, or other similar device in lieu
       of, or for the purpose of, creating an affidavit; for a
       face-to-face interview, the OEEO investigator must
       provide written questions to management and the
       Special Counsel a reasonable time in advance of
       scheduling the interview; and



                   15
      Requests to deviate from the “traditional” method of
       using interrogatories must be made in writing to the
       OEEO Director and detail why different investigative
       methods are necessary for the “prompt, fair and
       impartial processing” of the complaint.

The Equal Employment Opportunity Commission’s Office of
Federal Operations, an office with the authority to review
and ensure compliance of Equal Employment Opportunity
Commission laws and regulations by agencies, reviewed the
OEEO procedures and twice expressed concern regarding the
restriction on investigative procedures. The Office of Federal
Operations also expressed concern about the role of the
Agency’s Special Counsels and stated that the “NLRB has
blurred the required separation between the neutral
investigative and adjudicative functions of the agency’s
complaint process and the defensive arm of the agency,
potentially undermining the EEO Office’s independence and
impartiality, and creating at least an appearance of a conflict
of interest.”

The OEEO staff generally stated that the procedures inhibit
their ability to conduct investigations. The OEEO staff also
stated that they have not exercised their authority to deviate
from the use of interrogatories because to do so would have
been futile.

We were also provided information by Agency management
officials and the Special Counsels regarding the quality of
the OEEO investigative process. Their concerns can
generally be categorized as a lack of supervisory oversight of
the investigators and complaint processing; poor quality of
the interrogatories and information requests; and not being
kept sufficiently updated on the cases under investigation.

In general, we share the concerns of the Office of Federal
Operations regarding the procedures that were implemented
in December 2004. We believe that those procedures,
combined with the nature of the representation of
management by the Special Counsels and sense of futility
expressed by OEEO, results in a process that may impede or
prevent the prompt, fair, and impartial investigation of
complaints.




                   16
Recommendations

             We recommend that the OEEO Director:

             4. Develop investigative procedures that meet the
                requirements of EEO MD-110 and address issues noted
                by the Equal Employment Opportunity Commission’s
                Office of Federal Operations. In doing so, we suggest that
                the OEEO Director:

                   Survey equal employment opportunity offices of other
                   agencies to determine what, if any, standard
                   procedures have been developed;

                   Seek guidance from the Equal Employment
                   Opportunity Commission’s Office of Federal
                   Operations; and

                   Solicit observations of the OEEO process from
                   managers and employee unions.

             5. Present the investigative procedures to the Board and
                General Counsel to ensure that the process meets their
                responsibility of providing for the “prompt, fair and
                impartial processing” of complaints in accordance with
                Equal Employment Opportunity Commission regulations
                and policies.




                               17
APPENDIX
UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Equal Employment Opportunity

Memorandum



Date:           January 3, 2012

To:             David Berry,
                Inspector General

From:           Brenda Valentine Harris, Acting Director
                Office of Equal Employment Opportunity

Subject:        Response to Inspector General's Audit Report

The Office of Equal Employment Opportunity (OEEO) has carefully reviewed the draft
report issued by the Inspector General dated December 1, 2011 and considered its
analysis, findings and recommendations. This memorandum responds to said
analysis, findings and recommendations.

The Office of EEO is committed to its statutory mission to effectuate equal
employment opportunity principles and policies on behalf of the NLRB and all Agency
employees, and appreciates this opportunity to examine and improve its internal
operations. The audit report discusses a number of critical deficiencies in the internal
operations of OEEO. This response agrees with the vast majority of the
recommendations 1, and discusses the underlying framework from which problem
areas can be more fully understood, for the sole purpose of identifying the
appropriate resolution. It should be noted that the audit does not critique the quality
of the OEEO investigations. OEEO stands by the quality of its investigations, noting
that the EEOC has not remanded any cases for additional investigation. The overall
thrust of this audit has been that OEEO does not have sufficiently developed
processes to measure what it does and to ensure accuracy in its reporting. We
embrace this opportunity to correct the stated deficiencies.

 Insufficient Internal Controls

The Office of EEO agrees that it lacks sufficient documented procedures from which
to measure the accuracy and quality of its investigative work. OEEO uses certain
internal controls on a routine basis, including reliance on federal sector EEO
regulations, the EEOC's Management Directive 110 (MD110), authorizations for
investigators and performance reviews. Other than the regulations and MD11 0, and
performance review documents, formal records as described by the IG were not
maintained to provide evidence of the execution of these activities.



 1 The Office of EEO respectfully disagrees with the IG's assertion that its files do not comport with the
 requirements of the EEOC's Management Directive 110.
                                                        2

Former Director of OEEO, Robert J. POindexter,2 presided over the growth of the
Office of EEO during lean budget years wherein the OEEO expanded its staff using
existing NLRB attorneys and support staff, who did not have all of the requisite EEO
training. In this regard, due to budgetary restrictions over a number of years, OEEO
staff did not receive all necessary training in a timely manner. In addition, the staff
experienced at least two rounds of turnover, during which there were little or no
transition activities or cross-training. Informal and formal cases were and are
processed with some level of success, but in fiscal years 2009 and 2010, there was
an uptick in the number of formal complaints filed. The staff remained focused on
day-to-day operations and processed cases without the routine use of thorough
checklists and other mechanisms for quality control. Investigators routinely relied on
requirements in the federal sector EEO regulations, the EEOC's Management
Directive 110, and case law for guidance in processing complaint cases. Quality
control consisted of daily supervisory discussion and review, but these contacts were
not recorded. Management used mid-year verbal and annual written reviews with
individual employees to address weaknesses and manage performance. In addition,
management relied on its EEONet database for its most basic functions such as
issuing its monthly reports, but did not fully exploit all of the database features and
did not develop a mechanism for measuring the reliability of the data in the database.

The IG audit report has shown that the lack of internal controls have led to serious
consequences, as discussed in the analysis of data reliability. The Office of EEO
adopts the recommendation that it develop and document internal control procedures
and processes to ensure supervisory review of OEEO investigations and to ensure
consistent compliance with all EEOC regulatory requirements. The Office of EEO is
prepared to develop and establish the necessary internal controls in order to ensure
that its mission of complaint processing is accomplished without error. OEEO will
enlist the support of outside units and organizations with expertise in business
organization and strategic planning to supplement its staff's proficiency in the
application of substantive and procedural EEO law.

Processing Time Periods

The IG audit report reviewed OEEO compliance with critical time requirements at
each stage of processing informal and formal discrimination complaints.

Informal Complaints

As a small independent agency, the Agency utilizes a cadre of collateral duty EEO
counselors to perform this function. There are approximately 44 such counselors
throughout the Agency; at least one counselor is assigned to each Region and there
are 8 counselors assigned to Agency headquarters in Washington, DC. The
counselors are Agency employees, largely attorneys and examiners (investigators),
who take on the additional volunteer function of assisting their colleagues in the EEO


2 Mr. Poindexter passed suddenly on October 12, 2011, after the IG audit had been completed, but before the
report issued.
                                                          3

process by seeking first to resolve any matter of alleged discrimination and by
providing information about the process.

The collateral duty EEO counselors are supervised by the Office of EEO. OEEO
appoints the counselor, ensures that the individual receives the 32-hour basic
training required by the EEOC, and provides the annual 8-hour training requirement.
As well, OEEO conducts Agency based training for all of its collateral duty personnel
by holding conferences on a recurring basis, and provides both training manuals and
reference materials to assist the individual in handling a case. 3 OEEO provides
guidance to each counselor on specific cases, if that individual requests such
assistance. OEEO solicits annual end of year activity reports from each counselor
and has instructed counselors to report each request for assistance as it occurs.
While we agree with the IG's audit report that the data OEEO receives from its
counselors is flawed, we disagree that OEEO "does not actively monitor the informal
counseling process". OEEO actively trains, guides and solicits information from its
collateral duty counselors. The IG audit report requires more frequent monitoring of
informal counseling activity, and we agree.

The IG audit recognized that the statutory requirement that contact be initiated with
EEO within 45 days was met for each of the 21 formal complaint cases processed in
FY2010. The report was critical of the lack of records to show that timely 45 day
contact was made in the 18 informal cases that did not result in a formal complaint. It
is worth noting that the 45 day requirement is a factor of critical importance only if the
individual files a formal complaint. In order to measure this factor, our EEO
counselors are required to submit a written counselor's report, but only after a formal
complaint has been filed. Thus, the federal sector EEO regulations at 29 CFR Part
1614.105 (c) state that "when advised that a complaint has been filed by an
aggrieved person, the Counselor shall submit a written report within 15 days to the
agency office that has been designated to accept complaints ... " As acknowledged
by the audit report, OEEO has captured that information for each of the 21 formal
complaints processed in FY2010. No such requirement exists for informal cases.
Indeed, because EEO counselors are neutrals and may not take any position with
regard to any set of facts presented, they have no authority to dismiss any matter,
even if untimely. So it is of no consequence in the informal stage if the 45 day
requirement has not been met. Regardless, OEEO desires to improve the
completeness of all data and will as an initial step, amend its end of year counselor's
report by including a field to capture the date of each reported event of alleged
discrimination, to enable accurate measurement of the 45 day criteria for the universe
of informal cases.

The OEEO is proud of the cadre of dedicated volunteer EEO counselors, which it
appoints, trains, guides and relies on. However, because the function is collateral
duty, there is no mechanism to manage performance of the counselor function.
OEEO has no input into a collateral duty counselor's performance appraisal. These
unique individuals assist their colleagues with internal employment disputes, while
working full time as Agency employees investigating charges of unfair labor

3   Although OEEO prefers a 3-year cycle, budget constraints have limited the conferences to every 5 years.
                                              4

practices, prosecuting complaints under the NLRA, conducting representation case
hearings, holding elections, and more. OEEO is exploring ways to increase the
frequency of regular contact with collateral duty counselors and ways to bolster how
we support their role and will report on its action plans in this regard in the follow-up
report.

Formal complaints

The IG audit found one case of the 21 formal complaints that was accepted for
investigations, although it had been filed one day late. OEEO has looked into this
matter and determined that human error caused the transposing of the day and year
on the postmark. OEEO management reviews each letter of acceptance and
documents critical to the acceptance process, including the formal complaint, the
counselor's report, and the acceptability checklist. It is not clear why the human error
was not caught, and OEEO will address this issue in an action plan to ensure that
this error does not recur.

With regard to timeliness in investigations, OEEO agrees that the obstructions
identified by the IG do not meet regulatory requirements for extensions of the
investigative timeframe. OEEO will address this in an action plan responsive to the
IG audits recommendation that it develop internal controls.

Case Files

All formal cases have an Administrative file. The Administrative file houses all of the
formal documents in the EEO process. Each of those critical documents is also
included in the final Report of Investigation (ROI) (compiled and issued after a
completed investigation). The Administrative file also houses internal OEEO
documents such as notes between OEEO staff, emails of internal correspondence
related to scheduling appointments and the like, i.e. material clearly not relevant to
the body of work gathered during the investigation.

When a formal complaint is received and before any investigation begins, OEEO
issues a letter acknowledging receipt of the complaint, and solicits and receives the
written EEO Counselor's report. Federal sector regulations at 29 CFR Part 1614.107
require that cases which do not meet certain requirements be dismissed before an
investigation commences. Some cases are not investigated (they may be dismissed
in their entirety because the complaint did not meet statutory requirements). Other
complaints have been withdrawn for a variety of reasons including but not limited to
settlement.

The Office of EEO appreciates the insight of the IG audit on the maintenance of
OEEO's case file, but respectfully disagrees that its files do not comport with the
requirements of the EEOC's Management Directive 110. MD110 requires that
complaint files contain a case index, tabbed sections for documents, exhibits and
explanatory material and a typed summary of the investigation signed and dated by
the investigator. MD110 includes an Appendix with examples of suggested formats
                                                           5

for the variety of documents generated in the EEO process. The OEEO complaint
file, i.e. the ROI, always includes: a summary of the investigation signed and dated
by the investigator, a case index, tabbed sections for documents, exhibits and
explanatory material. In the past fiscal year, prior to the IG audit, OEEO had begun
to tab the contents of its Administrative files. Again, all pertinent documents from the
Admin file are included in the ROI, which is appropriately organized and tabbed;
however, internal OEEO documents such as notes between OEEO staff, emails of
internal correspondence related to scheduling appointments etc. are not included as
they are not relevant to the body of work gathered during the investigation. The ROI
(which includes a summary of investigation) can only be compiled after the
investigation is finished. And because some formal complaints are dismissed, settled
and/or withdrawn prior to the completion of an investigation, not all formal complaints
will result in an ROL

In summary, OEEO is confident that its complaint files have comported with MD11 0
requirements and that its administrative files, which are currently being organized and
tabbed, also comport with requirements. That being said, because the OEEO ROI
title page only identifies the Agency and the case name and number, we are revising
our ROI title page as recommended by the IG audit report, to include information
consistent with a suggested format of the MD110 Appendix, specifically, Agency
letterhead, Complainant's address, Agency head, and Agency address.

Data Accuracy and Reliability

The IG audit report acknowledged that all 21 formal complaint cases had been
entered into the database. Because of issues of reporting from EEO Collateral Duty
counselors, not every informal complaint reported by counselors in the end of fiscal
year report had been entered into the database. 4 . The number of inaccuracies
reflected in the IG audit report is alarming. OEEO has long had concerns about the
EEONet database as it does not allow an OEEO administrator to input or correct
information after the end of the fiscal year. Rather, this must be done by the outside
vendor creating inefficiency and potential inaccuracies. OEEO will include in its
action plan a system to receive reports from EEO Collateral Duty counselors on a
more frequent and regular basis with the last reporting cycle occurring just before the
end of the fiscal year to minimize the number of entries that may need to be made by
the outside vendor. It is expected that informal complaints occurring after that final
reporting cycle will be minimal and will be reported immediately to OEEO. OEEO will
also include in its action plan a review of the functionality of the database with the
vendor and steps to perform data integrity and quality reviews of the EEONet data. It
was correctly noted that the two informal counseling cases that Agency counselors
handled for other small independent agencies were not included in the database for
Agency cases. OEEO will develop a mechanism to accurately account for any
outside cases it handles. Data inaccuracies and reliability will be examined from
several vantage points, including developing internal controls, training, and reviewing
features of the product with the vendor.


4   The Office ofEEO obtains end of year data within a week after the conclusion of the fiscal year,
                                            6

Formal Complaint Data

Once a Report of Investigation issues and a complainant requests a hearing before
an EEOC administrative judge, the OEEO is not the primary point of contact on the
case. The IG report disclosed a case that our database continued to report as active
at the EEOC, when in reality it had been settled by Agency special counsel. OEEO
had not been informed. OEEO and Agency Counsel share information on a regular
basis at monthly meetings and on an as needed basis. The miscommunication in
this one instance was rare. As stated previously, OEEO adopts the recommendation
that it develop and implement processes and procedures to ensure that the case
data is reliable and to ensure accuracy in its reporting.

   II.    Formal Complaint Process


The Office of EEO agrees with the IG's audit report about ensuring that investigative
procedures meet the requirements of MD110 and address the recommendations of
EEOC's Office of Federal Operations. OEEO notes that it has been able to perform
quality investigations using existing procedures, although these procedures have
exacerbated inefficiencies in the investigative process. That being said, OEEO has
been willing and looks forward to participating in discussions with Agency
management about the findings of the IG report that "those procedures combined
with the nature of the representation of management by the Special Counsels and
sense of futility expressed by OEEO, results in a process that may impede or prevent
the prompt, fair and impartial investigation of complaints." It is expected that these
discussions will address utilizing OEEO's discretion to take face-to-face affidavits,
when appropriate, as opposed to exclusive use of interrogatories to gather evidence
from management witnesses, and exploring alternatives to the current practice of
providing the complainant's evidence to management prior to their submission of
evidence. OEEO continues to be available to collaborate with Agency management
and other stakeholders in an effort to further enhance its high quality investigations.



                                         BVH
